PROOF OF SERVICE
Petitioner hereby declares under penalty of perjury that this Petition for a
Writ of Certiorari has been mailed via U.S.P.S. Certified mail, return receipt
requested to: Scott S. Harris, Clerk of the United States Supreme Court, 1 1st Street
NE Washington, DC 20543.
Petitioner further declares under penalty of perjury that true and correct
copies of this Petition for a Writ of Certiorari have been sent via U.S.P.S First Class
Mail to each of the following: the Clerk of the Hopkins Circuit Court, 120 E Center
Street Madisonville, KY 42431! the Commonwealth Attorney, 52 E Broadway
Madisonville, KY 42431! Daniel Cameron, Kentucky Attorney General, Criminal
Appeals Division, 1024 Capital Center Drive Frankfort, KY 40601! the Clerk of the
Kentucky Court of Appeals, 360 Democrat Drive Frankfort, KY 40601! and the
Clerk of the Kentucky Supreme Court, 700 Capitol Avenue Frankfort, KY 40601 on
this 14th day of October, 2020.

Cecil Salyers, Petitioner, Pro Se

NOTARY STATEMENT
Subscribed and sworn to before me by Cecil Salyers on this 14th day of
October, 2020.

RECEIVED
NOTARY PUBLIC, State at Large: Kentucky

OCT 2 6 2020
SUPREME5CPljm-LUSK

ID Number CoCSc^OrU^>
My commission expires:

Qf-ao-AA

